No. 19-1181
IN THE

SUPREME COURT OF THE UNITED STATES
ESTATE OF THOMAS STEINBECK, GAIL KNIGHT STEINBECK,
AND THE PALLADIN GROUP, INC.,
Petitioners,
v.
WAVERLY SCOTT KAFFAGA, as Executor of the Estate of
Elaine Anderson Steinbeck,
Respondent.
CERTIFICATE OF SERVICE
I, Matthew J. Dowd, hereby certify that I am a member of the Bar of this
Court, and that I have this 23rd day of September 2020, caused a paper copy of the
Reply Brief of Petitioners to be delivered to the Court and an electronic version of
the document to be delivered to:
Susan J. Kohlmann
Jenner & Block LP
919 Third Avenue
New York, New York 10022
(212) 891-1690
skohlmann@jenner.com
Counsel for Respondent

/s/ Matthew J. Dowd
Matthew J. Dowd
Counsel for Petitioners

